IN THE SUPREME COURT OF THE UNITED STATES
No.
FEDERAL TRADE COMMISSION
v.
CREDIT BUREAU CENTER, LLC
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF
CERTIORARI FROM A JUDGMENT BY THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH CIRCUIT
Pursuant to Rules 13.5 and 30.3 of the Rules of this Court, the
Appellants, Credit Bureau Center and Michael Brown (“CBC” or
“Brown”)) respectfully requests a 60-day extension of time, to and
including January 18, 2019, within which to file a petition for a writ of
certiorari to review the judgment of the United States Court of Appeals
for the Seventh Circuit in this case. The court of appeals entered its
judgment, accompanied by a denial of rehearing en banc, on August 21,
2019. The time within which to file a petition for a writ of certiorari is
therefore currently set to expire on November 19, 2019. The jurisdiction

1

of this Court would be invoked under 28 U.S.C. 1254(1). The opinion of
the court of appeals (App., infra, 1a-66a) is reported at 937 F.3d 764.
1. This case concerns the scope of Section 13(b) of the Federal Trade
Commission Act (FTC Act), 15 U.S.C. 53(b).
a. Section 53(b), in pertinent part, authorizes the FTC, “pending the
issuance of a complaint by the Commission and until the complaint is
dismissed (or otherwise resolved) by the Commission”, the Commission
may bring suit to seek temporary restraining orders, preliminary
injunctions and, in proper cases, permanent injunctions for violations of
statutes enforced by the FTC, including Section 5(a)of the FTC Act, which
prohibits “unfair methods of competition” and “unfair or deceptive acts or
practices,” 15 U.S.C. 45(a). Section 53(b). Section also provides “That if a
complaint is not filed within such period (not exceeding 20 days) as may
be specified by the court after issuance of [injunctive relief], the order or
injunction shall be dissolved by the court and be of no further force and
effect….”
b. Defendants CBC and Michael Brown operated websites designed for
one of many affiliate companies that referred consumers seeking rental
homes. The affiliates would receive a referral fee for each consumer
2

directed to CBC’s website. The affiliate, Danny Pierce and his associate
Andrew Lloyd, however, concocted a scheme where he and Lloyd stole
real MLS Listings and misled consumers to contact them seeking rental
homes. Pierce and Lloyd told them that they had to get a credit report to
inspect or rent the Home. Consumers contacted CBC’s site and enrolled
in a membership that provided credit reports and ongoing credit
monitoring.
c. The FTC sued Brown and his company under Section 53(b) and sought
a temporary and preliminary injunctive relief and a permanent
injunction against future violations and “equitable monetary relief.” The
district court issued a temporary restraining order, followed by a
preliminary injunction.

However, the FTC did not file a complaint

seeking relief under Section 45 of the Act and the Court did not dissolve
the injunctions entered. The trial court granted the FTC’s motion for
summary judgment and entered a permanent injunction, which included
a $5.2 million restitution award. See 325 F. Supp.3d 852, 867, 869-870
(N.D. Ill. 2018).
d. The circuit court reversed the trial court’s award of “equitable
monetary relief” based on the text of statute, which authorizes only
3

restraining orders and injunctions, but did not provide for imposition of
monetary damages.

The Court further held that the elaborate

enforcement mechanisms of the Act did not implicitly authorize other
remedies. 937 F.3d 756 citing See Meghrig v. KFC W., Inc., 516 U.S. 479,
487–88, 116 S. Ct. 1251, 134 L.Ed.2d 121 (1996).
e. The circuit court also noted that Section 13(b) was procedurally
incompatible with Section 57b of the Act in that there was no statute of
limitations and required the Commission bring an administrative ceaseand-desist action where it could secure restitution only by proving that
the violation occurred after its order became final or that a reasonable
man would have known that the alleged conduct was fraudulent. 937
F.3d at 783-784.
f. The circuit rejected Appellant’s argument that the FTC must file an
administrative complaint if it seeks a TRO, preliminary injunction and a
permanent injunction affirming prior circuit precedent, United States v.

JS&A Grp., 716 F.3d 451, 456-7 (7th Cir. 1983).

In Federal Trade

Commission v. Shire ViroPharma, Inc. 917 F.3d 147 (3d Cir. 2019), the
circuit court concluded that Section 13(b) was expected to be used for
obtaining injunctions against illegal conduct pending completion of FTC
4

administrative hearings. Id. at 156. Appellant contends that the FTC’s
failure to file administrative hearings violates Congressional intent, as
expressed in the plain language of the statute which requires filing of a
complaint until the Commission dismisses or otherwise resolves the
complaint. Entry of the permanent injunction should be reversed.
g.

The circuit court upheld an injunction with an industry ban and

limitations that are overly broad and punitive in nature. Neither the
trial court nor the FTC cited any cases setting out factors to be considered
and weighed by the court in imposing a lifetime ban.

In Sec. & Exch.

Comm'n v. Gentile, No. CV 16-1619 (JLL), 2017 WL 6371301 (D.N.J. Dec.
13, 2017) the court found that an “obey the law” injunction and industry
bar requested by the SEC were punitive "noncompensatory sanctions”
based on the rationale of Kokesh v. United States, __U.S. __, and that the
bar requested would not “restore any ‘status quo ante.’” See Saad v.

S.E.C., 718 F.3d 904, 913 (D.C. Cir. 2013) (purpose of a lifetime bar must
be remedial, not penal); see also PAZ Sec., Inc. v. SEC, 566 F.3d 1172,

5

1176 (D.C. Cir. 2009)(lifetime bans must be remedial and not “excessive
or oppressive”). 1
2.

Appellant’s counsel is still evaluating whether to file a petition for

writ of certiorari but has been hampered by a busy litigation and trial
schedule. The Cochell Law Firm is a small firm practice comprised of
two lawyers, the undersigned counsel and Jonathan Slotter, a fourth year
associate.

Counsel has an active practice that has grown in the last

several months, including entry of an appearance pro hac vice in a
complex case in Orange County, FTC v. Elegant Solutions, Inc. 8:19-cv01333-JVS (C.D. Cal.) and consulting on other FTC matters. Counsel is
actively engaged in two significant personal injury claims, Singleton v.

In cases where a lifetime ban has been imposed, a lifetime bar has been reserved to
cases where the evidence overwhelmingly showed that the defendant was the leader
and implemented the scheme. See e.g. FTC v. Think Achievement Corp, 144 F. Supp.
2d 1013 (N.D. Ind. 2000); see also Commerce Planet, 878 F.Supp.2d at 1086. Id.
Before this case, Brown had no history of violations. Brown’s alleged misconduct
related only to Pierce and did not show a pattern of conduct supporting this sanction.
In the instant case, the Court should also consider the sanctions imposed against codefendants. There was no evidence that Brown conceived of or designed Pierce and
Lloyd’s scheme. Indeed, Pierce and Lloyd received extremely favorable treatment
compared to Brown, and they concocted the fraudulent scheme that led consumers to
CBC! The Court required Brown to obtain agreements from any future affiliates to
agree to substantial disclosure requirements about their businesses and consent to
comply fully with the Court’s order. This provision, standing alone, prevents Brown
from participating in any business using marketing affiliates, a widespread practice
in the internet marketing industry.
1

6

State Farm, 2019-23475 (113th District Court, Harris County)

and

Oyefeso v. Brixmor 2019-55963 (80th District Court, Harris County) as
well as landlord tenant matters in litigation, Pearl Chan Lee v. Alvani

Investments, 2018-44212 (281st District Court, Harris County) (trial set
January 6, 2019); a complex commercial dispute over the sale of jewelry
imported from India, Chandra Corporation v. Atashi Jewelry, Inc., 18
DCV-250844 (458th District Court, Fort Bend County), a complex custody
dispute, Stefanides v. Stefanides, 2012-04758 (310th District Court,
Harris County), a custody dispute, In re Harley Jae Sanchez, 15-DCV226198 (505th District Court, Fort Bend) and Amelia Colvin v. Deutsche

Bank Trust Company, Case 67142 (239th District Court, Brazoria County,
a complex foreclosure case that is pending summary judgment motions)
and George Barforough v. American Banker’s Insurance Company of

Florida, Case No. 4:18-cv-04569 (S.D. Tex.) (summary judgment briefing
ongoing), collective action under the FLSA, Aliakber Mustakali Momin v.

Miahmood Miahmed, Case No. 4:19-cv-01897 (S.D. Tex) (briefing due
November 15, 2019 re motion for collective action). Many of our clients
have disputes with their landlords or have commercial disputes with
partners that cannot be disclosed but are time consuming.
7

The Chandra Corporation, Oyefeso, Barforough and Stefanides
cases have been extremely active the last several months. We are about
to file additional pleadings in Sanchez and defend depositions in Oyefeso
on November 18, 2019 with contested hearings for enforcement
(contempt) on December 4, 2019, summary judgment on December 11,
2019 and mediation on December 19, 2019 in Stefanides.

Counsel

recognizes his obligation to prepare a thorough petition and anticipates
working over weekends this month and the Thanksgiving or Christmas
holiday to complete a petition for certiorari that will assist the Court in
its consideration of the case.
For the foregoing reasons and good cause shown, Applicants
request the Court grant this Application for an extension of time (60
days) to file a petition for writ of certiorari.
Respectfully submitted,
By: /s/ Stephen R. Cochell
Stephen R. Cochell Texas
Bar No.: 24044255 4850
San Felipe, Ste 500
Houston, Texas 77057
Telephone: (346)
800-3500
srcochell@gmail.com
8

Attorney for CBC and

Michael Brown
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of Applicants’
Application for an Extension of time Within which to File a Petition
for a writ of Certiorari from a Judgment by the United States Court
of Appeals for the Seventh Circuit by first class mail and email to:
NOEL J. FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE
WASHINGTON, D.C. 20530
MAIL ONLY
MICHAEL D. BERGMAN
FEDERAL TRADE COMMISSION
600 PENNSYLVANIA AVE. NW
WASHINGTON, D.C. 20580
SENT BY MAIL & EMAIL TO: MBERGMAN@FTC.GOV
/s/ Stephen R. Cochell
Stephen R. Cochell

9

